<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY FOR FISCAL YEAR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                FOR THE NATIONAL INSTITUTE OF STANDARDS
                  AND TECHNOLOGY FOR FISCAL YEAR 2017

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 16, 2016

                               __________

                           Serial No. 114-66

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                              ________
 
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-836PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. MCCAUL, Texas             ELIZABETH H. ESTY, Connecticut
RANDY HULTGREN, Illinois             KATHERINE M. CLARK, Massachusetts
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
BRUCE WESTERMAN, Arkansas            SUZANNE BONAMICI, Oregon
GARY PALMER, Alabama                 ERIC SWALWELL, California
RALPH LEE ABRAHAM, Louisiana         EDDIE BERNICE JOHNSON, Texas
DARIN LaHOOD, Illinois
LAMAR S. SMITH, Texas


                            C O N T E N T S

                             March 16, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     9

Statement by Representative Elizabeth H. Esty, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    16
    Written Statement............................................    18

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    21
    Written Statement............................................    22

                                Witness:

Dr. Willie E. May, Under Secretary of Commerce for Standards and 
  Technology and Director, National Institute of Standards and 
  Technology
    Oral Statement...............................................    24
    Written Statement............................................    27
Discussion.......................................................    38

             Appendix I: Answers to Post-Hearing Questions

Dr. Willie E. May, Under Secretary of Commerce for Standards and 
  Technology and Director, National Institute of Standards and 
  Technology.....................................................    50


                   AN OVERVIEW OF THE BUDGET PROPOSAL



                FOR THE NATIONAL INSTITUTE OF STANDARDS



                  AND TECHNOLOGY FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Barbara Comstock 
[Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing entitled ``An Overview of the 
Budget Proposal for the National Institute of Standards and 
Technology for Fiscal Year 2017.'' I now recognize myself for 
five minutes for an opening statement.
    I would first like to thank Dr. Willie May, Director of the 
National Institute of Standards and Technology (NIST), and 
Under Secretary of Commerce for Standards and Technology, for 
appearing today to discuss the NIST budget request for fiscal 
year 2017.
    This Committee has a long, bipartisan record of support for 
NIST and its contributions to research and development. As a 
non-regulatory agency within the Department of Commerce that 
works closely alongside industry, NIST works to promote U.S. 
innovation and industrial competitiveness by advancing 
measurement science, standards, and technology.
    The fiscal year 2017 budget request for NIST totals $1 
billion, an increase of $50.5 million or about five percent 
from the fiscal year 2016 enacted level. A large portion of 
this request is $730.5 million for NIST's Scientific and 
Technical Research Services. The STRS request includes 
increases for work conducted on measurement science for future 
computing technologies and applications, advanced sensing for 
manufacturing, biomanufacturing or engineered biology, 
addressing spectrum issues, neutron research, and lab-to-market 
or technology transfer promoting data-sharing efforts.
    The requested increases from NIST for fiscal year 2017 
would also be devoted in large part to bolster advanced 
manufacturing initiatives at NIST. In fact, $47 million dollars 
is requested for the National Network for Manufacturing 
Innovation. This program was authorized by the Revitalize 
American Manufacturing and Innovation Act of 2014 authored by 
Chairman Smith and approved by this Committee on a bipartisan 
basis.
    NIST is authorized to use up to $5 million per year of 
appropriated funds for fiscal year 2015 to fiscal year 2024, 
and the Department of Energy is authorized to transfer to NIST 
up to $250 million of appropriated funds for that same period 
of time.
    To administer NNMI, the RAMI Act also established strategic 
direction for the program and rules to assure fair competition 
for federal dollars. The fiscal year 2017 request for NNMI is 
an 88 percent increase from what was appropriated for fiscal 
year 2016, and my colleagues and I will be asking questions 
this morning about that increase and other aspects. We will 
also learn more today about the Institute's investment in 
cybersecurity and the NIST Cybersecurity Framework.
    As you all know, one of the great challenges of the 21st 
century is cybersecurity. This committee has held multiple 
hearings on cybersecurity since the news over the summer that 
the OPM was the target of two massive data breaches, exposing 
the sensitive information of over 21 million Americans, 
including me and many of my colleagues and many of our staff 
here on Capitol Hill, as well as tens of thousands of our 
constituents.
    More recently, we have seen the example of the security 
breach at the IRS, affecting hundreds of thousands of American 
taxpayers.
    Considering the constantly evolving cyber threats and 
technology, it is imperative that we do everything that we can 
to protect our citizens. In order to ensure this, NIST plays a 
very important role by providing guidelines and standards to 
help reduce cyber risks to federal agencies and critical 
infrastructure.
    Solutions are needed not only to prevent and detect cyber 
attacks, but also to bolster rapid response and recovery. Last 
week, I participated in several events on cybersecurity, and 
I'm very pleased that in my district this is an issue they are 
very much focused on, and certainly look forward to working 
with NIST to make sure that we are on top of all of these key 
issues.
    I look forward to and am appreciative of the opportunity to 
hear from Dr. May on how NIST plans to prioritize and manage 
funding, as well as how it sets its budget.
    [The prepared statement of Chairwoman Comstock follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Chairwoman Comstock. I now recognize the gentlewoman from 
Connecticut, Ms. Esty, for an opening statement.
    Ms. Esty. Thank you, Chairwoman Comstock, and thank you for 
holding today's important hearing to examine the fiscal year 
2017 budget request for the National Institute of Standards and 
Technology, which we will refer to as NIST because it's a whole 
lot shorter.
    Dr. Willie May, thank you so much for testifying this 
morning and for your leadership at NIST.
    For more than 100 years, NIST has supported the 
competitiveness of American companies. NIST's broad and deep 
technical experience has advanced measurement science, 
standards, and technological innovation, creating a strong U.S. 
economy and improving our quality of life. And I'm pleased that 
the President's budget for NIST recognizes its importance to 
this country, enabling the agency to play a prominent role in 
revitalizing American manufacturing and expanding technology 
transfer activities.
    The Administration's budget request proposes increases for 
two important manufacturing programs: the Manufacturing 
Extension Partnership, the MEP program; and, as was already 
referenced by Chairwoman Comstock, the National Network for 
Manufacturing Innovation.
    MEP centers help manufacturers increase their 
profitability, streamline their processes, and adopt cutting-
edge manufacturing technologies. The Connecticut State 
Technology Extension Program, or CONNSTEP as we call it, has 
helped numerous Connecticut manufacturing companies. For 
example, in my district, CONNSTEP helped Hologic, Incorporated, 
a leading developer and manufacturer of medical imaging 
systems, by working on one of their main manufacturing 
facilities. This facility, located in Danbury, employs more 
than 300 people and develops digital imaging technology for 3-D 
mammography. CONNSTEP helped this company optimize their shop 
floor layout in order to accommodate a new line of 3-D 
mammography equipment and develop new training.
    After working with CONNSTEP, the manufacturing facility saw 
the following improvements: Their unit production increased by 
11 percent, lead time reduced by 50 percent; they achieved 
$280,000 in cost savings; they had an increase in sales of $80 
million and 100 percent on-time shipment rate. Those are real 
figures and real jobs and real savings for the American people. 
And they are pretty impressive results and represent only one 
example, one of many, where the MEP program has been serving 
communities and serving companies across this country.
    The National Network for Manufacturing Innovation is a 
partnership among federal agencies, the private sector, and 
colleges and universities to create a national research and 
workforce training infrastructure for advanced manufacturing. 
At a time when American manufacturers face workforce challenges 
such as the growing skills gap, NNMI gives us a reason to be 
optimistic. And I am pleased that Congress funded NIST this 
year to establish the NNMI coordinating office.
    I'm also happy to see that, last month, NIST announced an 
open-topic competition for the formation of two new institutes. 
As the only agency that isn't limited to a single mission, NIST 
can invite a broad range of proposals to help grow America's 
manufacturing future.
    Finally, I'm pleased that the Administration's budget 
request increases funding for technology transfer activities. 
Federally funded research has changed our society and our 
economy and has led to major job creation. It's difficult to 
imagine or even remember a world without the Internet, GPS, 
health- and life-saving technology that has all originated from 
federally funded research.
    In this Subcommittee we often discuss the value of 
transferring federally funded research to the commercial 
marketplace, and I was pleased to see that this budget proposes 
developing and expanding platforms for sharing information and 
knowledge. These programs represent only a small fraction of 
the important work done at NIST.
    NIST is a small federal agency with a grand purpose of 
promoting U.S. innovation and industrial competitiveness. At a 
time when U.S. leadership in these areas is being challenged, 
NIST is more important than ever.
    Ms. Chairwoman, thank you again for holding this hearing, 
and I look forward to working with you and our colleagues to 
ensure that NIST has the resources it needs to fulfill its role 
in promoting innovation, increasing our competitiveness, and 
enhancing our national security. Thank you again, and I yield 
back the balance of my time.
    [The prepared statement of Ms. Esty follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
 
    Chairwoman Comstock. Thank you.
    And I now recognize the Ranking Member of the full 
Committee for a statement, Ms. Johnson.
    Ms. Johnson. Thank you very much. Thank you very much, 
Madam Chairwoman, for holding this important hearing.
    The National Institute of Standards and Technology, or 
NIST, is an agency that is central to the federal role in 
advancing science, promoting innovation, and creating a more 
prosperous nation. I look forward to hearing from our 
distinguished witness, Dr. May, this morning.
    It would be almost impossible to overstate the importance 
of NIST, the federal agency that promotes U.S. innovation and 
competitiveness by advancing measurement science, standards, 
and technology. In his first address to Congress, President 
George Washington said, ``Uniformity in the currency, weights, 
and measures of the United States is an object of great 
importance, and will, I am persuaded, be duly attended to.''
    This responsibility was first given to an office in the 
Treasury Department but then was moved over to the National 
Bureau of Standards, NIST's predecessor, in 1901. Every 
industry and nearly every technology relies on the measurement 
and standards work at NIST, from the smart electric power grid, 
to the computer chips, to building safety. NIST supplies 
industry, academia, and government and other users with 
thousands of standard reference materials in addition to doing 
much of the testing and validation work in their own 
laboratories.
    Along with working with industry, academia, state and local 
governments, and consumer groups to develop U.S. standards, 
NIST accomplishes its mission of promoting U.S. innovation and 
competitiveness through their research laboratories, Centers of 
Excellence, and manufacturing programs.
    I was happy to see the proposed increase in the fiscal year 
2017 budget request for those programs, and I hope that 
Congress will fully support the request. In particular, I was 
happy to see the proposed increases in NIST's programs to 
develop the measurement tools needed to support the engineering 
biology research and biomanufacturing.
    Engineering biology research and technologies are very 
exciting and have the potential to solve some of society's 
greatest challenges, including providing food for a growing 
population, improving human health, reducing our dependency on 
fossil fuels, and dramatically transforming manufacturing. 
Given the promise of this research and its applications, I 
introduced the Engineering Biology Research and Development Act 
of 2015 with my Science Committee colleague Mr. Sensenbrenner.
    Additionally, I am pleased the President's budget 
recognizes the importance of NIST's role in American 
manufacturing. The budget proposes an increase for both the 
Manufacturing Extension Partnership, or the MEP program, and 
the National Network for Manufacturing Innovation, the NNMI.
    Finally, I'm happy to see NIST leadership in the area of 
forensic science and standards. The partnership between NIST 
and the Department of Justice must continue to recognize NIST's 
critical role in the development of technical standards for 
forensic evidence. However, I'd like to emphasize that NIST 
must ensure that forensic standards being developed are 
consistent with NIST's longstanding commitment to science and a 
fair and balanced standards-setting process.
    As I have said in the past, NIST may be the most important 
federal agency that most people have never heard of. I 
appreciate that there are many worthy programs across the 
government, and we cannot fund everything, but supporting the 
agency that promotes U.S. innovation and competitiveness should 
be an easy choice.
    Madam Chairwoman, I thank you again for holding this 
hearing, and I look forward to working with you and our 
colleagues to ensure that NIST has the resources it needs to 
fulfill its critical role. I thank you and yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Chairwoman Comstock. Thank you, Ms. Johnson.
    And I now recognize the Chairman of the full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Madam Chair, and, Dr. May, thank 
you for being here today as well.
    The National Institute of Standards and Technology supports 
fundamental scientific research that is critical to American 
innovation and competitiveness. NIST helps maintain industrial 
and technical standards and manages cybersecurity guidelines 
for federal agencies. Our challenge is to set funding 
priorities that ensure America remains a leader in the global 
marketplace of ideas and products, while also being able to 
balance the government's budget.
    As Chairwoman Comstock pointed out, the area of proposed 
funding of $47 million for the National Network of 
Manufacturing Innovation program is of particular concern with 
the NIST fiscal year 2017 budget request. In 2014, this 
Committee and the full House approved H.R. 2996, the Revitalize 
American Manufacturing Innovation Act of 2014, or RAMI Act.
    The RAMI Act was subsequently included in the fiscal year 
2015 omnibus bill and signed into law by the President. This 
bill authorized up to $5 million per year for NNMI from NIST. 
The bulk of the program funding is to be transferred from the 
Department of Energy's Office of Energy Efficiency and 
Renewable Energy budget. Why hasn't this happened? It must if 
the program is to continue.
    In addition, there are concerns surrounding the explosion 
at NIST that occurred when a senior officer with NIST Police 
Services attempted to manufacture meth in a NIST facility. It 
is surprising that a federal agency didn't know that a meth lab 
was being run on its property, and without an explosion, it 
might have never been discovered. The meth lab explosion and 
subsequent investigation have raised serious concerns about the 
safety and security of the entire NIST campus.
    Information obtained during this Committee's investigation 
of the meth lab at NIST appears to show a culture of waste, 
fraud, abuse, and misconduct at NIST Police Services. For 
example, time and attendance fraud occurred regularly at NIST 
Police Services. In one instance, 84 hours of overtime was 
recorded during a two week period while a full-time shift was 
being covered. If accurate, that would mean the officer worked 
16 hours a day, seven days a week. It also appears that police 
equipment worth tens of thousands of dollars is unaccounted for 
or missing from the police force.
    These unfortunate examples undermine NIST's mission to 
promote U.S. innovation and industrial competitiveness, which 
enhances economic security and improves our quality of life.
    I hope to hear what steps have been taken in the wake of 
the meth lab explosion to prevent further misuse of taxpayers' 
dollars. Just as important is to find out why NIST continues to 
ignore the RAMI Act.
    I look forward to hearing from our witness today and yield 
back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. Thank you.
    Now, let me introduce our witness. Our witness today is Dr. 
Willie May, Under Secretary of Commerce for Standards and 
Technology and Director of the National Institute of Standards 
and Technology, NIST.
    Prior to his Congressional confirmation, Dr. May served as 
Acting NIST Director and Acting Under Secretary of Commerce for 
Standards and Technology since June 2014. Prior to that 
assignment, Dr. May was Associate Director for Laboratory 
Programs where he was responsible for oversight and direction 
of NIST's seven laboratory programs and served as the Principal 
Deputy to the NIST Director. In addition, Dr. May has led NIST 
research and measurement service programs in chemistry-related 
areas for more than 20 years.
    Dr. May received his undergraduate degree from Knoxville 
College and his Ph.D. in analytical chemistry from the 
University of Maryland.
    I welcome you here today, and I now recognize Dr. May for 
five minutes to present his testimony.

                TESTIMONY OF DR. WILLIE E. MAY,

           UNDER SECRETARY OF COMMERCE FOR STANDARDS

                  AND TECHNOLOGY AND DIRECTOR,

                NATIONAL INSTITUTE OF STANDARDS

                         AND TECHNOLOGY

    Dr. May. First, good morning to Committee Chairwoman 
Comstock.
    Full Committee Chairman Smith and Ranking Member Johnson, 
Subcommittee Chairwoman Comstock and Ranking Member Esty and 
members of the Subcommittee, thank you for the opportunity to 
appear before you today to present the President's fiscal year 
2017 budget request from the National Institute of Standards 
and Technology.
    This budget request reflects the important role that NIST 
plays in American innovation, productivity, trade, and public 
safety. The measurement science and technology foundation that 
NIST provides is essential to accelerating American innovation 
through breakthroughs such as next-generation computing to 
strengthening the digital economy and more efficient wireless 
technology to overcome the spectrum crunch.
    Additionally, researchers supported by this budget will 
help embed NIST industrial center technologies to the factory 
floor, thereby extending NIST's success with the electronics 
industry to applications such as laser welding and 
bioengineering.
    To achieve our mission, the President has proposed a budget 
for us of slightly more than $1 billion, a $50 million increase 
over the enacted fiscal year 2016 budget. In addition to this 
discretionary request, the President has proposed an additional 
$2 billion in NIST mandatory funding to fully fund a network of 
45 institutes in the National Network for Manufacturing 
Innovation at $1.9 billion and an additional $100 million to 
renovate and modernize the NIST facilities.
    The President's budget continues to recognize the important 
role that the NIST laboratory programs play by requesting 
$730.5 million for our Scientific and Technical Research and 
Services account, basically our lab program. This is a $4.5 
million increase over the enacted fiscal year 2016 level. This 
increase will allow NIST to lay the foundation for next-
generation computing and wireless revolution, transfer money-
saving technology to the factory floor, and bring our precision 
engineering prowess to bear on emerging markets.
    The fiscal year 2017 request will also continue to fund 
critical work that we are doing in the areas of cybersecurity 
and forensics but with no additional request. However, we are 
requesting increases of $13.6 million for our Measurement 
Science for Future Computing Technologies and Applications 
program to position the United States to unlock the potential 
of future computing technologies.
    We are requesting an additional $2 million for advanced 
sensing manufacturing to accelerate research efforts targeting 
the development of advanced sensors, an additional $2 million 
for biomanufacturing and engineering biology to assure the 
quality of predictability in the design of synthetic biological 
systems, and $2 million for Advanced Communications Research to 
develop the measurement science and tools necessary to improve 
spectrum-sharing and increase spectrum efficiency of commercial 
wireless radiofrequency communication systems, an additional 
$4.8 million to assure that NIST's world-class neutron facility 
can continue to purchase the fuel needed to operate this 
critical facility, and finally, $2 million to expand our Lab-
to-Market initiative, which focuses on transfer of technology 
from the government, the public sector through data-sharing and 
collaborative tools.
    To support our outreach to the manufacturing industry, NIST 
is requesting $189 million for our Industrial Technology 
Services account. That's an increase of $34 million.
    The requested $12 million increase for MEP will be used in 
fiscal year 2017 to complete the final round of a multiyear 
competition of our MEP centers and $22 million to support the 
NNMI program that would allow us to fund additional institutes 
and provide coordination for the network.
    To support our aging facilities, our Construction of 
Research Facilities, our CRF account, the request is $95 
million. This is actually a decrease of $24 million over fiscal 
year 2016.
    And at this point I'd like to thank the Subcommittee for 
its continuing strong support of the renovations of our aging 
and deteriorating infrastructure that would otherwise threaten 
our ability to deliver our mission.
    The CRF number is a decrease, as I said earlier, from the 
fiscal year 2016 enacted level, but it reflects a significant 
initial investment of $119 million in fiscal year 2016 to begin 
the renovation of our Radiation Physics building. At least $40 
million of the '17 request will fund the second phase of the 
multiyear renovation of that building, and the remaining $55 
million of the request will be used to fund maintenance, 
repair, improvements, and major renovations of our facilities 
in Gaithersburg, Colorado, and Hawaii.
    In conclusion, the fiscal year 2017 budget reflects the 
Administration's recognition of the important role that NIST 
plays in innovation, as well as the impact of the research that 
we do and the measurement services we provide in laying and 
maintaining the foundation for our nation's long-term job 
creation and prosperity.
    Through our laboratory programs, our outreach efforts, and 
our standards development work, we are dedicated to providing 
U.S. industry with the tools it needs to innovate, compete, and 
flourish in this fierce global economy.
    Madam Chairwoman, I look forward to continuing to work with 
you and Members of the Subcommittee, and would now be happy to 
answer questions.
    [The prepared statement of Dr. May follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairwoman Comstock. Thank you very much.
    As you discussed and we've discussed here, NIST will 
continue to fund the works in the areas of cybersecurity, and 
I've certainly been very interested in that given all of the 
recent problems that we're running into there. So I wanted to 
ask, of the $74.2 million request in cybersecurity, more than 
half supports R&D efforts. Can you just give us a picture of 
some of that R&D taking place and how academia and industry are 
involved and just, you know, a little view on that if you 
could.
    Dr. May. Well, we have a number of efforts in 
cybersecurity. First of all, we have a very robust laboratory-
based research program in cybersecurity, but this is an area 
that is moving very, very rapidly, and we saw the need for 
reaching out and including industry in this. And we established 
our National Cybersecurity Center of Excellence where we work 
with 22 companies in that area to work on problems that they 
see as a priority and take our standards that we developed, 
based on our authority, and put them into practice, working 
with these 22 companies. That is working very well, and we 
expect that work to continue in the future.
    We have a NICE program, which is the National Initiative on 
Cybersecurity Education, where we are trying to educate the 
next generation on the value of cybersecurity and actually 
provide training in that realm. And we are improving or 
increasing our bench depth in cryptography both from a 
defensive, as well as an offensive perspective if you will.
    Chairwoman Comstock. Okay. One of the things that I hear 
from the companies in my district is how difficult it is for 
people to get clearances. And, so oftentimes you get this 
talent, and these kids are really good and want to come out and 
work in this area so they can work for the government, but the 
clearance process takes forever. Have you found that a problem 
as you're trying to get talent within the government, too?
    Dr. May. Well, certainly it's a challenge in that area 
because there's a limited supply. However, we are very 
aggressive and we are, I think, addressing that issue.
    Chairwoman Comstock. Are you able to shorten the time 
because the problem is, you know, these kids are coming out, 
they're getting recruited by a lot of private companies where 
they're going to make more money than in the government. So if 
we're going to get them into the government and have them 
working for us, we need to make sure we can streamline that 
process and not lose them because it's sort of bureaucracy 
within.
    Dr. May. I could not agree more.
    Chairwoman Comstock. Right. All right.
    Let's see. How do you, given the importance of 
cybersecurity and it's certainly in the forefront of our minds 
on a lot of these issues we're dealing with, how do you decide 
to increase spending in other areas and pick your priorities on 
this? And do you feel comfortable where we're at on the 
cybersecurity budget?
    Dr. May. The Committee has been very generous to us over 
the last several years in cybersecurity, and certainly we think 
we have the resources now to deliver our mission in that area. 
And we look forward to continuing to work with you to make sure 
we can titrate this as we go forward to make sure that we 
maintain the resources necessary to deliver our mission and 
work with both government and industry to improve the 
cybersecurity posture for our country.
    Chairwoman Comstock. Okay. Thank you. And I know that NIST 
is hosting its next Cybersecurity Framework Workshop on April 6 
and 7. Can you give us a little insight into what changes to 
the cybersecurity framework that we might see featured there--
--
    Dr. May. Well, we----
    Chairwoman Comstock. --give us a little preview of that?
    Dr. May. We actually don't know.
    Chairwoman Comstock. Oh.
    Dr. May. The reason for this meeting is to work with 
industry to determine what changes we might need to make to the 
Framework, how quickly we might do that, and how. So this is an 
information-gathering meeting so that we know how to blaze the 
path forward with the Framework.
    Chairwoman Comstock. All right. Thank you.
    And I now yield to Ms. Esty for her five minutes.
    Ms. Esty. Again, thank you, Chairwoman Comstock, for 
holding today's hearing.
    Dr. May, as a member of the Science Committee as well as 
the Transportation Committee, I understand the importance of 
reliable communications technology, particularly in our new, 
developing advanced transportation systems. From railroads to 
tech startups, our companies depend on advanced communications 
and spectrum to be able to communicate in real time.
    Dr. May, NIST is asking for a $2 million increase to $15 
million in funding for its Measurement Sciences program to 
support advanced communications networks. Can you please 
describe for us the challenges we face with the rapid advances 
we're experiencing on our communications technologies and how 
NIST intends to address these challenges through the proposed 
increase?
    Dr. May. Well, these activities will be focused primarily 
in our newly--or recently created Communications Technologies 
Laboratory. And we have three main work streams within that 
laboratory. One is public safety communications to improve the 
technology and provide the standards necessary to build out the 
nationwide LTE network for first responders. So we're 
responsible for the measurement standards and testing to make 
sure that we can do this and do this in a manner that we 
provide open competition for the vendors of devices that would 
want to play in that space. Obviously, there are some 
measurement and standards issues associated with with spectrum-
sharing and spectrum efficiency.
    And finally, we are working with players around the world 
to define what 5G will look like and to implement that to sort 
of make sure that the United States is not left behind when it 
comes to next-generation communications technologies.
    Ms. Esty. Thank you. That's very helpful. And this is 
ongoing, particularly on the public safety front. I can tell 
you in the 41 cities and towns I represent, this is an ongoing 
challenge about interoperability and their ability to 
communicate with each other and coordinate, so I hope we can 
move rapidly forward.
    So those investments the taxpayers are making on the local 
level are really wise investments that are going to be good for 
a number of years and they're not going to have to, two years 
from now, change their whole systems out again, which will be 
very challenging.
    Connecticut has a thriving manufacturing community in my 
district. From Jonal Labs, which does aerospace and work for 
NASA, to United Technologies Corporation, to Click Bond, to 
Becton Dickinson Connecticut. Companies manufacture a broad 
range of products, aerospace and bond fasteners. Through my 
conversations with these companies, one common theme emerges, 
and that is a concern about workforce readiness. Do our young 
people have the skills necessary to compete in modern 
manufacturing?
    As you know, a strong domestic manufacturing base is 
essential for high-quality jobs and for a living wage for many 
people in this country. Can you explain to us a little bit how 
the MEP's ExporTech program operates and what it's doing to 
expand overseas markets and tech transfer for U.S. companies 
and the goals of this program in the fiscal year 2017 budget?
    Dr. May. Well, what we want to do is work with other 
entities within government to 1) demonstrate that manufacturing 
in fact is a viable career path for young folks and get the 
word out. We have established a National Manufacturing Day that 
takes place in early October every year where we point to the 
future, at least try to get the young folks to see and 
visualize the future that manufacturing is cool; there are 
good, high-paying jobs; but more than that, working in 
manufacturing is really being truly American because we need to 
bring manufacturing jobs back to the United States. We need to 
be an exporter and not only an importer of goods. So we are 
working with the entire community to try to strengthen 
manufacturing and make sure that we get the word out that there 
is a future in manufacturing, and it's critical to our country.
    Ms. Esty. Thank you very much. And I suspect that the 
Ranking Member of the full Committee will pick up with 
biomanufacturing, which I would love to ask some questions 
about, but my time is expired. Thank you very much, and I yield 
back.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Palmer for five minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    Dr. May, NIST has its own police force. How much do you 
spend each year for that group?
    Dr. May. About $8 million, sir.
    Mr. Palmer. About $8 million. What activities or 
investigations justify having a police unit within NIST?
    Dr. May. Well, primarily, we've historically had a police 
force at NIST, and the Federal Protective Service has granted 
us the ability to maintain that on our campus. We also have 
some fairly sensitive assets that I won't go into detail about 
here--but I will do in private conversations with the 
committee--that have to be maintained.
    Mr. Palmer. Well, is it a----
    Dr. May. So that was the historical basis.
    Mr. Palmer. Is it a police force or a security force?
    Dr. May. Actually, we have both. We have a perimeter 
security force that guards the perimeter, and we actually have 
a police force that is responsible for policing the campus.
    Mr. Palmer. What do you spend on this perimeter security 
force?
    Dr. May. The exact numbers I'll have to get to you, but 
that is a contract police force.
    Mr. Palmer. It's a contract----
    Dr. May. Yes.
    Mr. Palmer. --force? All right. Does your police force have 
the authority to make arrests?
    Dr. May. They do have the authority to make arrests, and 
they have made arrests.
    Mr. Palmer. Okay. How many officers does NIST employee in 
that force?
    Dr. May. As I said, I don't have the numbers right before 
me, but I would imagine with the police force, if we were fully 
staffed, 15 to 20, and the external security, probably another 
dozen. But I will get those numbers to you specifically.
    Mr. Palmer. Okay. And I assume they're armed?
    Dr. May. Well, I just don't know that it's appropriate for 
me to discuss that operation in detail----
    Mr. Palmer. Well, you're----
    Dr. May. --but I can provide those numbers to you.
    Mr. Palmer. I don't think there's any issue here with that. 
I think it's pretty evident that they are armed, and what I 
want to know is, is it side arms, is it small arms, is it 
military-style weapons? How are they equipped?
    Dr. May. Sir, I'll be happy to provide that as a matter of 
record to the Committee.
    Mr. Palmer. Okay. How long would that take?
    Dr. May. We can get that to you by the end of the day if 
you want.
    Mr. Palmer. You outsourced your security. Why don't you 
outsource your police force?
    Dr. May. Well, we are a science and technology agency, and 
knowing that, I've recently asked for an assessment of our 
overall security posture by three external security experts. 
They have given us their thoughts on the rightsizing and nature 
of security force for our campus, and the questions that you 
ask are being considered.
    Mr. Palmer. Do you have them on one campus or do you have 
multiple locations where your police are employed?
    Dr. May. We have police on our Gaithersburg campus and on 
our Boulder campus.
    Mr. Palmer. You know, I----
    Dr. May. Boulder, Colorado.
    Mr. Palmer. I believe we have 70-something federal agencies 
that have armed agents, including the EPA that has spent 
several million dollars, and I don't know if it bothers anybody 
else but it seems that it's almost like we've militarized 
federal agencies. And I just don't understand why we have to 
have so many agencies with their own armed agents providing 
security when you could outsource that.
    And I commend you for outsourcing your security force. I 
understand you have certain specific issues that would require 
protection, but I am very concerned about so many federal 
agencies having armed agents and being armed with military-
style weapons. So if you would get back with that information, 
and I think it will be helpful if you look at outsourcing your 
police force.
    Dr. May. Certainly, that issue is among the recommendations 
that we've gotten from our three security experts, and we are 
mulling over that issue now exactly how to move forward to 
improve the security posture for both of our campuses.
    Mr. Palmer. Well, thank you for your answers, Dr. May.
    I'll yield back, Madam Chairman.
    Chairwoman Comstock. Thank you. And I'll now recognize Ms. 
Bonamici, who is also sitting in as our Ranking Member now. 
Thank you.
    Ms. Bonamici. Thank you, Madam Chair.
    And, Dr. May, welcome back to the Committee. I want to 
start by thanking you and your team at NIST for working with 
Oregon's Manufacturing Extension Partnership OMEP. I know they 
appreciate the collaboration. And since 2003, OMEP has helped 
with creating or maintaining more than 15,000 manufacturing 
jobs in Oregon. And you talked about the importance of getting 
the word out there that these are good jobs. I think you said 
cool, cool jobs, and I want to mention that I went out to tour 
Fort George Brewery in my district. They got some help with 
OMEP to help with their canning process. That was pretty cool.
    I also have in my district A.R.E. Manufacturing. That's a 
contract shop in Newberg, Oregon, that specializes in making 
precision equipment components for manufacturers. By working 
with OMEP to develop a job-training program for their 
employees, they were able to increase their entry-level hiring 
pool and hire more qualified people, and so I appreciate all 
the work that NIST has done with the MEP programs across the 
country but particularly those I'm familiar with in Oregon.
    Dr. May, over the past several years, our nation has 
experienced historic and devastating natural disasters, and 
numerous communities across the country are still recovering 
and rebuilding. NIST is the lead agency for two important 
natural disaster programs, the National Earthquake Hazards 
Reduction Program and the National Windstorm Impact Reduction 
Program. Now, the Pacific Northwest is especially prone to 
earthquakes. We are sitting off the Cascadia subduction zone in 
the Northwest, and we are overdue, so it's not a question of if 
there will be an earthquake; it's when. So can you describe the 
role that NIST plays in these programs both as the lead agency, 
as well as your role in working on research to improve the 
performance of buildings and infrastructure in the face of a 
disaster?
    Dr. May. Well, we have a major program in our Engineering 
Laboratory, a part of which used to be a Building and Fire 
Research Laboratory, to provide the basic science and 
engineering technology to modify the construction of buildings 
for the areas to the hazards in that geographic locale. And 
that's a longstanding program, and with support for this 
Committee, we have been able to strengthen the program.
    But we also coordinate NEHRP where we work with other 
agencies to develop new standards and codes based on knowledge 
that we gain from natural disasters that we actually can't 
control that we can sort of try to respond to them and make our 
built environment more resilient and resistant to things that 
we can't control.
    Ms. Bonamici. Thank you. Certainly, more investment at the 
front end saves lives and property later.
    Also, Dr. May, federally funded research has led to many 
innovations. We've heard about some of those today: GPS, 
barcodes, lifesaving medications and treatments. In this 
Committee we often hear about the challenges and obstacles to 
successfully transferring federally funded research from the 
lab to the private marketplace. The budget proposes an increase 
in technology transfer activities to develop data-sharing and 
collaborative tools and services. So can you elaborate, please, 
on the efforts, how these efforts would help enable the 
transfer of the federally funded research to the marketplace?
    Dr. May. Well, certainly, as you mentioned and others have 
mentioned, there are a lot of very important technologies and 
tools that are being developed in our laboratories, but it's a 
very large enterprise and we don't right now have ready access 
to the information of the various components. For example, if 
I'm in the private sector and I want to make something, there 
might be inventions across several federal agencies where I 
could pull that together if I only knew that they were there. 
So our primary effort is to develop a resource, one-stop 
shopping if you will, to look at the investments and the 
technologies that are being developed in the public sector that 
can be brought to bear to develop new technologies, new 
inventions in the private sector.
    Ms. Bonamici. Terrific. Thank you very much.
    I yield back. Thank you, Madam Chair.
    Chairwoman Comstock. Thank you.
    And I now recognize Mr. Loudermilk for five minutes.
    Mr. Loudermilk. Thank you, Madam Chairwoman. And, Dr. May, 
thank you for being here.
    During my first year in Congress here, I've been quite 
amazed. You know, we live in reality TV show, conspiracy TV 
show, those things dominate our culture today, but the more 
I've been here, the more I see that a lot of things that happen 
in the federal government would make--we feed a lot of the 
information to these. But can we bring up the first slide here?
    [Slide.]
    Mr. Loudermilk. I want to bring up an incident that I'm 
sure you're aware of that happened in May of 2015 where one of 
the senior NIST police officers was operating a meth lab that 
apparently there was an explosion at the agency. He was using a 
vacant building to actually cook meth. Of course, thankfully, 
that police officer is currently in jail for manufacturing 
methamphetamine, but the fact that he was able to smuggle the 
necessary materials into a vacant NIST building is 
embarrassing, but it also raises serious questions about safety 
and security of the whole facility, as well as the people who 
live and work in Gaithersburg. I'm sure you, too, would agree 
that the meth lab explosion was a serious incident. I'm sure 
you're aware of that incident. Do you feel that was a serious--
--
    Dr. May. It certainly was, sir.
    Mr. Loudermilk. It was. Is that one of the most serious 
incidents that has ever happened at NIST?
    Dr. May. From a perspective of the----
    Mr. Loudermilk. Since you've been there?
    Dr. May. --of embarrassment--I've been there 45 years.
    Mr. Loudermilk. Yes.
    Dr. May. I've been there a long time. On an embarrassment 
scale, yes. In terms of actual structural damage, no, because 
the structural damage was very, very minimal. We had a fire in 
one of our laboratories. So in terms of destruction of 
property, this ranks very low because the building that this 
activity took place in was designed for hazardous--it used to 
be called a Hazards Lab as a matter of fact, and it has blowout 
panels in case there is a pressure buildup. The panels behaved 
as they should. They were placed back in the next day, and 
there was minimal structural damage to the building.
    Mr. Loudermilk. So the primary thing, though, is an 
embarrassment?
    Dr. May. Yes.
    Mr. Loudermilk. So you don't feel that there's a security 
concern or that the money you're spending on the officers, law 
enforcement officers at NIST actually committing felonies on 
property, that's not a concern?
    Dr. May. Oh, that is a big concern.
    Mr. Loudermilk. Okay.
    Dr. May. That is a big concern. As I had mentioned before 
you came in, after this incident took place, I requested input 
from security experts from three other sources that----
    Mr. Loudermilk. Okay.
    Dr. May. that operate environments like us to give us their 
input----
    Mr. Loudermilk. Okay.
    Dr. May. --on how we can strengthen the security posture of 
our campus beyond this, and all indicated that in a situation 
similar to this it would be hard to anticipate what a trusted 
member of your security staff might do.
    Mr. Loudermilk. And I understand it, and I apologize for 
just popping in, but I am dealing with homeland security issues 
as well, which is very important.
    But after the explosion, you briefed this Committee staff 
on the incident. In the briefing you referred to the explosion 
as a near miss. You stand by that characterization that it was, 
you know, a near miss since no one was hurt or----
    Dr. May. Well, it opened our eyes and made us--well, for 
one, it compelled me to get some outside expertise or input on 
how we might strengthen our security posture and to take a deep 
dive----
    Mr. Loudermilk. Okay.
    Dr. May. --actually. So I guess near miss----
    Mr. Loudermilk. Yes.
    Dr. May. --that no one was seriously hurt. And again, it 
opened our eyes that we needed to take a deep look and 
investigation into our security personnel.
    Mr. Loudermilk. Okay. Can we bring up slide two? I want to 
make sure we get to this, too, as our time is running down.
    [Slide.]
    Mr. Loudermilk. This is an email from your Chief of Staff 
Kevin Kimball in the aftermath of the meth lab explosion. 
Referring to the explosion, Mr. Kimball writes, ``Can't see how 
this rises to an audit risk. Don't remember briefing the 
auditors after the plutonium''--assume incident--``and that was 
a thousand times more of a risk.'' What incident is he talking 
about that was a thousand times worse than a meth lab 
exploding?
    Dr. May. Well, that was an incident that took place in our 
Boulder laboratory, I think, in 2007 where a small amount of 
plutonium was released into the sewer system based on some 
research that we were doing out there.
    Mr. Loudermilk. Into the sewer system?
    Dr. May. Yes.
    Mr. Loudermilk. Do you agree that that was a thousand times 
worse than the meth lab?
    Dr. May. Well, I had not thought about how I would quantify 
that, but certainly I think that in fact in terms of danger to 
the public, yes, that was more serious than that particular 
incident.
    Mr. Loudermilk. So was this plutonium incident released--or 
reported to this Committee or any Members of Congress or----
    Dr. May. It was, and in fact the then-Acting Director 
testified before this Committee about that incident.
    Mr. Loudermilk. Okay. Are there any other incidents that we 
should know about that are a thousand times or a hundred times 
worse than the meth lab?
    Dr. May. Not that I am aware of.
    Mr. Loudermilk. Okay. Well, I think the other questions I 
have have already been answered, Madam Chairwoman, and so I 
yield back. Thank you.
    Chairwoman Comstock. Okay. I now recognize Mr. Tonko for 
five minutes.
    Mr. Tonko. Thank you, Madam Chair. And welcome, Dr. May.
    As a representative for the capital region of New York, I 
realize that moving toward an innovation economy is the key to 
our economic growth. With that in mind, I'm pleased to witness 
our nation's renewed desire to invest in high-tech 
manufacturing and in innovation economy. I see great hope for 
these efforts, especially inspired by the formulation of the 
National Network for Manufacturing Innovation, or NNMI.
    I have some questions this morning that aim to seek clarity 
in the NIST NNMI selection process as we move forward.
    In December of 2015, NIST published a notice of intent that 
indicated that NIST was especially interested in two areas of 
focus, including collaborative manufacturing robots and 
biopharmaceuticals manufacturing. However, in the Federal 
Funding Opportunity, the FFO, neither topic was mentioned.
    This year, the Department of Defense issued a request for 
information for new manufacturing innovation institutes, and 
the Department of Defense listed six technical focus areas 
under consideration, including two topics: one, the assistive 
and soft robotics; and bioengineering for regenerative medicine 
as another, which are similar to NIST's area of focus. 
Presumably, NIST and DOD would not want to select areas, I 
would imagine, that are too much alike.
    So, Dr. May, can you further discuss the process that NIST 
would use or will use to select a proposal?
    Dr. May. Well, please excuse the colloquialism, but for the 
December announcement I'll just say my bad. What we intended to 
do was address the concern that you've expressed that we were 
looking in our Institutes that we would sponsor to the 
Department of Commerce not to duplicate anything that was 
ongoing or planned by the Department of Energy or the 
Department of Defense or any other federal agency that would be 
standing up a manufacturing institute. And we gave two 
examples, the examples of biomanufacturing and engineering 
robotics were just two examples.
    And in retrospect, they probably should not have been 
called out because it did cause confusion. But I am here to 
guarantee to you that our process and the process that we 
launched about a week ago, week-and-a-half ago, is one that 
will be truly open, and we will not support any institute that 
is already in existence or planned by any other federal agency.
    Mr. Tonko. So, as you go forward, the coordination with DOD 
would be----
    Dr. May. Yes.
    Mr. Tonko. --a very strong part of your interoperations?
    Dr. May. It will be, it has been, and through our Advanced 
Manufacturing Program Office, we actually provide the 
coordination and glue for the network, so we are in constant 
contact there. There is a call that I'm a part of, and with our 
representatives from the National Economic Council, as well as 
DOE and DOD on a regular basis, so we are in constant 
communication.
    Mr. Tonko. And could one agency decide to not select a 
proposal that was too similar to a proposed--a proposal that 
another agency is considering?
    Dr. May. As a matter of fact, I think we have a process in 
place where it wouldn't be just the agency decides. We would 
decide as a collective because we are trying to operate a 
network, although it has individual nodes, but we're trying to 
work on behalf of this again is a cliche, but the American 
people, and certainly we don't want to have any duplicative 
activities.
    Mr. Tonko. Well, I know a number of institutions in my 
district have specific abilities in these disciplines, so I'm 
just concerned. Is NIST planning sequential awards?
    Dr. May. Can you explain what you mean by sequential?
    Mr. Tonko. Well, as you go forward, will there be 
additional awards that NIST is looking at where you would use 
the initial pool of proposals for future awards?
    Dr. May. Yes. What we are planning to do is to, with this 
call, essentially establish a queue, and we have resources to 
fund one institute from our fiscal year 2016 funds. The funds 
requested in the '17 budget should allow us to establish two 
additional ones, and we would establish the queue based on the 
call that is out at present.
    Mr. Tonko. Okay. I would strongly encourage the 
continuation of some of these thematics that you've outlined. I 
think they're critical to our manufacturing base, and 
certainly, I think that there's a great contribution that many 
of our higher ed centers and private sectors could offer 
through a collaborative. So I'm a very strong fan of NNMI and 
hope it continues in a way that's targeted to the strength that 
we have in our nation----
    Dr. May. Okay. Thank you.
    Mr. Tonko. --to strengthen us across the board.
    Dr. May. Thank you.
    Mr. Tonko. Thank you.
    Chairwoman Comstock. Thank you.
    Mr. Tonko. And with that----
    Chairwoman Comstock. And I now recognize Mr. Hultgren for 
five minutes.
    Mr. Hultgren. Thank you, Chairwoman. I appreciate it so 
much.
    And thank you, Dr. May, for being here. I do really 
appreciate the work at NIST and see how important cooperation 
is, communication is, and wanted just to ask you a few 
questions. I apologize. I've got a couple hearings going on at 
the same time, so if any of this has been covered, I'm sorry. I 
wasn't able to hear about it, but I did want to get some 
answers on this.
    I wondered, have any program funds come from DOE's EERE 
program, as was stipulated in the bipartisan RAMI Act, which 
was something I supported and cosponsored? If not, why not, and 
is there any plan for funds to be transferred from EERE to the 
Department of Commerce to carry out NNMI in the future?
    Dr. May. Well, first of all, we are very appreciative of 
your support of the RAMI bill because that authorized us to, 
one, to sponsor institutes from the Department of Commerce, and 
it also gave NIST the authority to set up our Advanced 
Manufacturing Program Office to coordinate the activities for 
the network.
    However, that was an authorization bill and not an 
appropriation bill, and the bill says the Secretary of Energy 
may, it didn't say shall, and to this date, this hasn't 
happened. But we have gotten an appropriation in '16 for $25 
million to begin this process, and we're going use funds from 
that to support at least one network in '16, and with the 
request in '17, two more, and to begin activities of 
coordination, information-sharing within the network.
    Mr. Hultgren. Well, I do hope it moves forward. Were you 
involved in or were you aware of any discussions between the 
Commerce Department and the Energy Department about carrying 
out the RAMI Act after it was signed into law? It sounds like 
there was some conversations there. Were you a part of those?
    Dr. May. Yes, I was.
    Mr. Hultgren. Okay. And that was really what you're 
referring to now where it was the difference between whether it 
was appropriations or an act?
    Dr. May. Yes.
    Mr. Hultgren. Okay. Well, again, hopefully, that can be 
clarified. Hopefully, these important programs, some in 
Illinois, can move forward and absolutely will be making a 
difference.
    I wonder, how will NIST evaluate competing proposals from 
different industry sectors? Will NIST treat each industry as 
equal and decide on the basis of the proposal details and 
private financial contributions when you're looking at the RAMI 
Act?
    Dr. May. Well, in short, I think we are going to cut the 
best deal for the American people.
    Mr. Hultgren. What does that----
    Dr. May. I----
    Mr. Hultgren. Can you explain it a little bit better for 
me?
    Dr. May. Well, what we're looking for in these institutes 
are institutes that have the potential to be sustainable. They 
need to address one of the needed areas in the advanced 
manufacturing domain. And we will look at all proposals and 
select the one based, one, on no duplication of activities 
currently ongoing within other institutes and address the 
greatest need, the strongest partnership among industry and 
academia.
    Mr. Hultgren. So your plan is to treat each industry as 
equal and truly decide on the basis of proposal details and 
private financial contributions and not have a preset agenda--
--
    Dr. May. Exactly.
    Mr. Hultgren. Okay. And how do you plan to integrate new 
centers with existing ones?
    Dr. May. Well, new centers will be a part of the network, 
and they will have the services of the NIST Advanced 
Manufacturing Office to provide them with best practices, 
information-sharing, so they will again be a member of the 
team.
    Mr. Hultgren. Okay. So, again, the RAMI Act, again, I was 
proud to support that, proud to be a cosponsor of it, but also 
a big reason why I support it was my understanding was it was a 
merit-based, nonpolitical process for----
    Dr. May. Yes.
    Mr. Hultgren. --soliciting, evaluating, and competitively 
funding new manufacturing innovation centers. That's still your 
commitment to----
    Dr. May. That's still our commitment.
    Mr. Hultgren. Okay. And we want to obviously see that 
happen. Hopefully, this will continue to move forward. We all 
agree it's important. It's been a little disappointing and 
frustrating on our part that it hasn't moved more quickly, and 
my hope is that that will happen soon and that the commitment 
that you've made today and previous commitments of keeping 
politics out of this and really looking at industries that are 
best fit and can put the best proposals together will be the 
ones that are receiving the opportunity in the centers.
    So I'm out of time. I will yield back to the Chairman. 
Thank you.
    Dr. May. And, sir, that is our commitment to you and to the 
Subcommittee.
    Chairwoman Comstock. Thank you, Dr. May.
    And I'd like to thank you also for your testimony and the 
members for their questions. And the record will remain open 
for two weeks for additional written comments and written 
questions from members. We appreciate your work on this 
important subject and look forward to continuing to work with 
you, Dr. May.
    The hearing is adjourned.
    Dr. May. Thank you.
    [Whereupon, at 11:07 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Willie E. May


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
